TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    More Progress Is Needed to Reduce the
                     Millions of Dollars Paid in Interest on
                           Improperly Frozen Refunds



                                         August 18, 2009

                              Reference Number: 2009-30-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 18, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – More Progress Is Needed to Reduce the
                                 Millions of Dollars Paid in Interest on Improperly Frozen Refunds
                                 (Audit # 200930016)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has made progress in strengthening the controls over taxpayer accounts containing the
 automatic large dollar refund freeze.1 This review was part of our Fiscal Year 2009 Annual
 Audit Plan and addresses the major management challenge of Erroneous and Improper
 Payments.

 Impact on the Taxpayer
 The IRS issues millions of refunds worth billions of dollars to taxpayers each year through its
 automated and manual systems. The IRS’ inability to promptly resolve some accounts with a
 large dollar refund freeze can adversely affect taxpayers who may need the refunds to help meet
 their financial obligations. These delayed actions may also negatively impact the IRS’ mission
 of providing top-quality customer service, in addition to costing the Federal Government
 millions of dollars in additional interest.




 1
     See Appendix V for a glossary of terms.
                      More Progress Is Needed to Reduce the Millions of Dollars
                           Paid in Interest on Improperly Frozen Refunds




Synopsis
We reported in September 19992 and again in March 20023 that the IRS was experiencing
problems with the process of freezing large dollar refunds. In those reports, we recommended
that computer programming changes be made to periodically alert employees to review accounts
with large dollar frozen refunds and systemically release these refunds if the credit amount went
below the large dollar refund freeze threshold (currently $10 million). In addition, we
recommended that the IRS create processing procedures and provide training for employees
responsible for large dollar frozen refunds.
In this followup review, we found fewer accounts with the large dollar refund freeze.
Nevertheless, the amount of interest the IRS continues to owe taxpayers with improperly frozen
refunds is substantial because it has yet to implement our recommendations from the prior
reviews. Overall, we found 152 taxpayer accounts on the IRS Master Files with the large dollar
refund freeze, of which 75 (49 percent) were improperly frozen. The 75 improperly frozen
accounts included 49 accounts for which refunds totaling $620 million were not timely issued
and resulted in the Government incurring $62.9 million in additional interest.

Recommendations
We recommended the Deputy Commissioner for Services and Enforcement coordinate with the
appropriate functional areas and follow through with implementing our prior recommendations
to: 1) properly implement computer system modifications to provide alerts to review large dollar
frozen taxpayer accounts for credits that can be released and to systemically release the freeze on
accounts when credits fall below the large dollar refund freeze threshold; 2) ensure procedures
for processing large dollar frozen refunds adequately address common issues that arise and
delineate responsibilities of the various functions that are most involved with the processing and
monitoring of these taxpayer accounts; and 3) ensure training materials cover the procedures for
processing large dollar frozen refunds.

Response
IRS management agreed with our recommendations. Computer programming requests have
been submitted to systemically release the refund freeze when credits fall below the $10 million
threshold and to establish a report of all taxpayer accounts containing a refund freeze that will be


2
  Controls Should Be Strengthened Over Business Taxpayer Accounts With Frozen Million Dollar Refunds
(Reference Number 199940057, dated September 27, 1999).
3
  The Internal Revenue Service Continues to Owe Millions of Dollars in Interest to Taxpayers With Frozen Refunds
(Reference Number 2002-30-062, dated March 12, 2002).
                                                                                                                   2
                   More Progress Is Needed to Reduce the Millions of Dollars
                        Paid in Interest on Improperly Frozen Refunds



used to ensure employees review for credits that can be released. In addition, procedures for
processing large dollar refunds have been updated. Also, training materials created for and used
by the Wage and Investment Division Accounts Management function will be sent to other
business organizations responsible for large dollar refunds for use in their upcoming training.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                               3
                          More Progress Is Needed to Reduce the Millions of Dollars
                               Paid in Interest on Improperly Frozen Refunds




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Although Fewer Accounts Have the Large Dollar Refund Freeze,
          the Percentage of Improperly Frozen Accounts Remains High....................Page 3
                    Recommendations 1 and 2: ................................................Page 5

                    Recommendation 3:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measures...............................................................Page 11
          Appendix V – Glossary of Terms .................................................................Page 13
          Appendix VI – Management’s Response to the Draft Report ......................Page 15
        More Progress Is Needed to Reduce the Millions of Dollars
             Paid in Interest on Improperly Frozen Refunds




                     Abbreviations

IRS            Internal Revenue Service
TIGTA          Treasury Inspector General for Tax Administration
                      More Progress Is Needed to Reduce the Millions of Dollars
                           Paid in Interest on Improperly Frozen Refunds




                                           Background

The Internal Revenue Service (IRS) issues millions of refunds worth billions of dollars each year
through its automated and manual systems. For example, in Fiscal Year 2008, the IRS issued
121 million refunds totaling $330 billion.1 However, if a taxpayer’s account has a filed tax
return and a credit balance2 of $10 million or more, the IRS’ computer system places a freeze on
the taxpayer’s account to prevent it from automatically refunding or offsetting to another
liability. This freeze is intended to alert IRS employees that a refund, if appropriate, must be
issued manually because the computer system does not allow for the number of digits needed to
automatically issue the refund. Also, this freeze situation allows an opportunity for IRS
employees to review the account for errors before taking action to resolve the account. Taxpayer
accounts with the large dollar refund freeze must be properly processed to avoid paying
additional interest to taxpayers and burdening taxpayers by preventing timely access to funds.
In September 1999, we reported that the IRS was experiencing problems releasing large dollar
frozen refunds, for which the IRS incurred additional interest expense of $17.5 million on
44 business taxpayer accounts.3 Recommendations were made to 1) modify the computer
program to provide an option of releasing refunds when business taxpayer account credit
balances fall below the large dollar refund freeze threshold, 2) generate periodic followup
transcripts for business taxpayer accounts with a large dollar refund freeze, 3) display the large
dollar refund freeze on critical IRS computer screens, and 4) enhance procedures to identify and
expedite the resolution of a large dollar refund freeze.
In March 2002, we reported the IRS had not implemented our prior recommendations as agreed
and instead, in January 2001, increased the threshold for automatically freezing refunds from
$1 million to $10 million.4 The threshold increase did not solve the problems, as we identified
209 improperly frozen accounts resulting in the IRS issuing approximately $185.8 million in
delayed refunds to taxpayers and paying them an additional $15.4 million in interest.
Recommendations were again made to 1) modify the computer program to release refunds when
business taxpayer account credit balances fall below the large dollar refund freeze threshold,
2) establish indicators on key computer screens and generate periodic alerts for employees to
review business taxpayer accounts with a large dollar refund freeze, and 3) provide updated
training for employees that manually initiate refunds. IRS management’s response was not

1
  This does not include the 116 million economic stimulus payments totaling $95 billion in Fiscal Year 2008.
2
  See Appendix V for a glossary of terms.
3
  Controls Should Be Strengthened Over Business Taxpayer Accounts With Frozen Million Dollar Refunds
(Reference Number 199940057, dated September 27, 1999).
4
  The Internal Revenue Service Continues to Owe Millions of Dollars in Interest to Taxpayer With Frozen Refunds
(Reference Number 2002-30-062, dated March 12, 2002).
                                                                                                         Page 1
                   More Progress Is Needed to Reduce the Millions of Dollars
                        Paid in Interest on Improperly Frozen Refunds



received before the final report was issued, but the IRS subsequently reported to the Department
of the Treasury’s Joint Audit Management Enterprise System that it had implemented the
corrective actions.
This review was performed in the Large and Mid-Size Business Division, the Small Business/
Self-Employed Division, the Tax Exempt and Government Entities Division, and the Wage and
Investment Division during the period October 2008 through June 2009. An onsite review was
performed at the IRS campus in Ogden, Utah. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 2
                          More Progress Is Needed to Reduce the Millions of Dollars
                               Paid in Interest on Improperly Frozen Refunds




                                         Results of Review

Since our 2002 report, there are fewer taxpayer accounts containing a large dollar refund freeze.
However, the percentage of accounts with credits that continue to be improperly frozen remains
high, and the interest the IRS will pay on these accounts is substantial.

Although Fewer Accounts Have the Large Dollar Refund Freeze, the
Percentage of Improperly Frozen Accounts Remains High
In 2002, we identified 412 business taxpayer accounts with large dollar refund freezes and found
that 209 (51 percent) improperly frozen accounts resulted in the IRS issuing approximately
$185.8 million in delayed refunds to taxpayers and paying them an additional $15.4 million in
interest. In this followup review, we identified 152 taxpayer accounts with large dollar refund
freezes, of which 75 (49 percent) were improperly frozen. Those 75 taxpayer accounts
(70 businesses and 5 individuals) included 49 taxpayer accounts for which refunds totaling
$620 million were not timely issued, resulting in the Government incurring $62.9 million in
additional interest that could have otherwise been avoided.5 Although the remaining
26 taxpayers were not due refunds, the large dollar refund freeze will need to be removed so the
credits can be properly applied to the accounts. For example, some of the 26 taxpayers have
outstanding liabilities from other tax periods in their account that can be satisfied by transferring
the credits to offset the amounts owed. As Figure 1 shows, the 75 taxpayer accounts involved
multiple IRS functional areas and contained $1.288 billion of credits that were improperly frozen
for an average of 1,154 days.
     Figure 1: Improperly Frozen Taxpayer Accounts at the End of Fiscal Year 2008
                                                                Accounts           Credits        Average
                           IRS
                                                               Improperly        Improperly        Days
                     Functional Area
                                                                 Frozen            Frozen         Frozen
    Submission Processing Function                                     14        $348.2 million    2,676
    Accounts Management Function                                       34        $569.2 million      744
    Examination Function                                               22        $282.2 million    1,008
    Office of Appeals and the Collection Function6                      5        $88.7 million       319
                    ALL FUNCTIONAL AREAS                        75          $1.288 billion         1,154
Source: Treasury Inspector General for Tax Administration’s (TIGTA) review of taxpayer accounts and
information from IRS personnel.


5
    See Appendix IV for details.
6
    This includes collection activity performed at field and campus locations.
                                                                                                      Page 3
                         More Progress Is Needed to Reduce the Millions of Dollars
                              Paid in Interest on Improperly Frozen Refunds



To their credit, IRS officials were already taking steps to release the freezes for 12 of the
49 accounts by issuing refunds to the taxpayers before we brought the improperly frozen
accounts to their attention. The officials also initiated actions to release the refunds associated
with the remaining 37 accounts once we brought the accounts to their attention. Taking these
actions is important because we estimate that if the 37 taxpayer accounts had continued to go
undiscovered, an additional $5.94 million of interest would have been owed to the taxpayers
each year, or $29.7 million over 5 years.7
The Government Accountability Office’s Standards for Internal Control in the Federal
Government recommends that managers take prompt action to correct problems identified by
auditors. Specifically, Federal managers are to evaluate findings and recommendations reported
by auditors, determine the actions to take in response to the findings and recommendations, and
complete actions that correct the problems brought to their attention. Although the IRS reported
through the Department of the Treasury’s Joint Audit Management Enterprise System that it had
corrected the problems we had previously reported related to large dollar frozen refunds, we
found four areas where the actions taken were either inadequate or not completed.
First, we recommended that periodic notices be generated by IRS computers to alert employees
to perform a manual review of large dollar frozen taxpayer accounts for credit amounts that
could be released. However, we learned that, during clarification of the work requested by IRS
computer programmers, the recommended alert was discontinued at the request of Submission
Processing, who thought it duplicated another alert. The other alert is produced only once to
address large credits occurring during the initial processing of tax returns and possibly for other
situations such as subsequent payments, transfers, or abatements. However, that one-time alert is
given to the Submission Processing function, which may overlook the large dollar refund freeze,
and may not be effective when the account is controlled by another functional area. If the
recommended periodic alert had been implemented, 74 of the 75 taxpayer accounts with an
improper large dollar refund freeze would have received at least one alert for manual review and
70 taxpayer accounts would have received at least a second alert.
Second, we recommended another computer programming change to systemically release credits
when the taxpayer account went below the $10 million threshold due to payment transfers or
adjustments, so that manual intervention would not be necessary. This change was not included
in the work request to the Information Systems function to make the other recommended
programming modifications. If the systemic release had been implemented, 36 of the
75 taxpayer accounts with an improper large dollar refund freeze would have been released, but
still subject to remaining account freeze conditions.
Third, the IRS developed written procedures for the processing of large dollar frozen refunds as
directed by our previous recommendations. However, feedback from the IRS following their
review of taxpayer accounts noted that these procedures needed to be enhanced. During our

7
    See Appendix IV for details.
                                                                                               Page 4
                    More Progress Is Needed to Reduce the Millions of Dollars
                         Paid in Interest on Improperly Frozen Refunds



review, Accounts Management personnel informed us that they started updating their written
procedures and have updated five Internal Revenue Manual sections to help further clarify that a
manual refund must be input to release amounts over $10 million. Also, the three functional
areas most involved with the processing and monitoring of the frozen accounts (Submission
Processing, Accounts Management, and Examination) had difficulty delineating responsibilities
for releasing the large dollar refund freeze. In addition, the Examination function has no specific
procedures to address large dollar frozen refunds when establishing or closing audits.
Fourth, following our last review, the IRS proposed adding refresher training and employee
alerts in conjunction with the implementation of new procedures. This action was later deemed
unnecessary by the IRS due to the low volume of large dollar frozen refunds. However, current
training materials for the three functional areas most involved with the processing and
monitoring of large dollar frozen refunds do not contain specific information to address these
accounts.
We believe it is important to recognize that the number of improperly frozen large dollar refunds
is very small when compared to the millions of refunds the IRS successfully processes each year.
Nevertheless, this is a long-standing condition that can adversely affect taxpayers and negatively
impact the IRS’ mission of providing top-quality customer service in addition to costing the
Federal Government millions of dollars in additional interest.

Recommendations
Because several IRS functional areas are involved, we are recommending that the Deputy
Commissioner for Services and Enforcement coordinate with the respective functional areas and
follow through with implementing the recommendations we made in earlier reports.
Recommendation 1: Ensure employees receive periodic computer alerts to review large
dollar frozen taxpayer accounts for credits that can be released and that the freeze on accounts is
systemically released when credits fall below the $10 million threshold by implementing
agreed-upon computer programming modifications.
       Management’s Response: IRS management agreed with our recommendation.
       Computer programming requests have been submitted to systemically release the refund
       freeze when credits fall below the $10 million threshold and to establish a report of all
       taxpayer accounts containing a refund freeze that will be used to ensure employees
       review for credits that can be released.
Recommendation 2: Ensure procedures for processing large dollar frozen refunds are
available, adequately address common situations, and effectively delineate the responsibilities of
the various functions that are most involved with the processing and monitoring of these
accounts.


                                                                                             Page 5
                  More Progress Is Needed to Reduce the Millions of Dollars
                       Paid in Interest on Improperly Frozen Refunds



      Management’s Response: IRS management agreed with our recommendation. All
      procedures contained in the Internal Revenue Manual sections for processing large dollar
      refunds have been updated. These revisions contain common situations and include
      detailed procedures for working and monitoring the taxpayer accounts.
Recommendation 3: Ensure the training materials for the functions involved with frozen
refund accounts include the procedures for processing large dollar frozen refunds.
      Management’s Response: IRS management agreed with our recommendation.
      Training materials created for and used by the Wage and Investment Division Accounts
      Management function will be sent to other business organizations responsible for large
      dollar refunds for use in their upcoming training. The other business organizations
      responsible for large dollar frozen refunds will review the training material and use it as
      determined by the business organization to train their employees working the cases.




                                                                                            Page 6
                      More Progress Is Needed to Reduce the Millions of Dollars
                           Paid in Interest on Improperly Frozen Refunds



                                                                                               Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has made progress in
strengthening the controls over taxpayer accounts containing the automatic large dollar refund
freeze.1 To accomplish our objective, we:
I.   Determined if recommendations from the TIGTA’s March 2002 report were implemented.2
     A. Reviewed the Department of the Treasury’s Joint Audit Management Enterprise
        System reports to determine the IRS’ corrective actions, implementation dates, current
        status, history of actions, and responsible officials.
     B.   Interviewed employees and reviewed documents (e.g., Request for Information
          Services, updates to Internal Revenue Manuals, training materials, memoranda,
          employee alerts) to support the IRS’ corrective actions.
     C.   Reviewed Internal Revenue Manuals and training materials for consistency and
          up-to-date procedures for large dollar frozen refunds.
     D. Performed a walkthrough at the Ogden Campus to determine what procedures were
        implemented or in place to expedite the resolution of large dollar frozen refunds.
II. Determined if current taxpayer accounts are improperly frozen due to the large dollar refund
    freeze.
     A. Obtained a computer extract from TIGTA’s Data Center Warehouse of all business
        (144) and individual (8) taxpayer accounts with a large dollar refund freeze as of
        Master File processing cycle 200839 (the end of Fiscal Year 2008). To ensure data
        were sufficiently reliable for our review, we scanned field elements for expected values
        and completeness as well as compared computer information with Master File
        transcripts used in the next step, below.
     B.   Reviewed Master File transcripts, case control bases on the Integrated Data Retrieval
          System, and other applicable case-specific information from IRS personnel to
          determine if the large dollar refund freeze was improper at the time of our computer
          extract (i.e., no case action or delayed case action for the credits to be refunded,
          transferred, or adjusted).


1
  See Appendix V for a glossary of terms.
2
 The Internal Revenue Service Continues to Owe Millions of Dollars in Interest to Taxpayers With Frozen Refunds
(Reference Number 2002-30-062, dated March 12, 2002).
                                                                                                        Page 7
               More Progress Is Needed to Reduce the Millions of Dollars
                    Paid in Interest on Improperly Frozen Refunds



C.   Quantified the effect of the accounts improperly frozen due to the large dollar refund
     freeze. This includes the number of taxpayer accounts affected, additional interest paid
     to the taxpayers, the amount of credits, and the duration of time for the delay. We
     confirmed results with designated technical experts and IRS officials.
D. Interviewed IRS officials responsible for the identified exception taxpayer accounts
   (those with improper freezes) to determine what missing or ineffective controls over
   large dollar frozen refunds may have allowed these accounts to go unresolved.




                                                                                      Page 8
                  More Progress Is Needed to Reduce the Millions of Dollars
                       Paid in Interest on Improperly Frozen Refunds



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert M. Jenness, Audit Manager
Aaron R. Foote, Lead Auditor
Cynthia Dozier, Senior Auditor




                                                                                      Page 9
                 More Progress Is Needed to Reduce the Millions of Dollars
                      Paid in Interest on Improperly Frozen Refunds



                                                                    Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Chief Technology Officer OS:CTO
Director, Campus Compliance Services SE:S:CCS
Director, Customer Account Services SE:W:CAS
Director, Examination SE:S:E
Director, Accounts Management SE:W:CAS:AM
Director, Submission Processing SE:W:CAS:SP
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Deputy Commissioner for Operations Support OS
   Deputy Commissioner for Services and Enforcement SE
   Commissioner, Large and Mid-Size Business Division SE:LM
   Commissioner, Small Business/Self-Employed Division SE:S
   Commissioner, Tax Exempt and Government Entities Division SE:T
   Commissioner, Wage and Investment Division SE:W
   Chief, Appeals AP
   Chief Technology Officer OS:CTO




                                                                          Page 10
                   More Progress Is Needed to Reduce the Millions of Dollars
                        Paid in Interest on Improperly Frozen Refunds



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Actual; $62.9 million in additional interest expense
    for the 49 improperly frozen taxpayer accounts that were corrected by issuing a refund during
    our review (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained a computer extract from TIGTA’s Data Center Warehouse of all taxpayer accounts
with a large dollar refund freeze as of the end of Fiscal Year 2008 (152 accounts with
$5.2 billion in credits). We determined that the IRS improperly prevented the release of
$1.288 billion in credits for 75 taxpayer accounts for an average of 1,154 days. We confirmed
our results with IRS officials. During the course of our review, the IRS initiated corrective
action for 49 improperly frozen taxpayer accounts by issuing a refund with interest for the total
period applicable for the credit. Calculating the elapsed time from the day the refund could have
been released to the day the refund was actually released, we determined that the IRS incurred
$62.9 million in additional interest expense for the 49 improperly frozen taxpayer accounts that
required a refund.

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Potential; $29.7 million in additional interest
    expense over 5 years for 37 improperly frozen taxpayer accounts with no corrective actions
    in process when the improper freeze was brought to the attention of IRS officials during this
    review (see page 3).

Methodology Used to Measure the Reported Benefit:
Using the outcome measure methodology discussed above, we confirmed with IRS officials that
$62.9 million in additional interest will be paid to 49 taxpayer accounts that were improperly
frozen but later corrected by issuing a refund. Of these 49 taxpayer accounts, the IRS did not
discover and take action to issue the refund for 37 accounts until after we brought the improper
freeze to the attention of IRS officials. If these 37 taxpayer accounts had continued to go

                                                                                          Page 11
                       More Progress Is Needed to Reduce the Millions of Dollars
                            Paid in Interest on Improperly Frozen Refunds



undiscovered, an additional $5.94 million of interest would have been owed to the taxpayers
each year, or $29.7 million over 5 years (using the minimal interest rate of 1.5 percent as of
April 1, 2009).1




1
 Per Internal Revenue Bulletin 2009-13 (March 30, 2009), the rates of interest for the calendar quarter beginning
April 1, 2009, will be 4 percent for overpayments, or 3 percent in the case of a corporation. The rate of interest paid
on the portion of a corporate overpayment exceeding $10,000 will be 1.5 percent.
                                                                                                              Page 12
                   More Progress Is Needed to Reduce the Millions of Dollars
                        Paid in Interest on Improperly Frozen Refunds



                                                                                Appendix V

                               Glossary of Terms

Accounts Management Function – Responds to taxpayer inquiries for advice on a variety of
tax law and procedural questions, account inquiries and adjustments, and responses to notices
that are received via the telephone, correspondence, and email at 25 Account Management sites.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Function – Collects delinquent taxes and secures delinquent tax returns.
Credit Balance – An amount overpaid or prepaid on a taxpayer account.
Examination Function – Applies the tax law through Field and Office Audit examinations.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with a taxpayer’s account records.
Joint Audit Management Enterprise System – The Department of the Treasury’s audit
tracking and management control system. It contains all findings, recommendations, and
planned corrective actions for TIGTA audit reports.
Large and Mid-Size Business Division – One of four primary IRS divisions that serve the tax
needs of corporations, subchapter S corporations, and partnerships with assets greater than
$10 million.
Large Dollar Refund Freeze – A freeze code on the taxpayer’s account (shown as “X-”) that is
sometimes referred to as the “Million Dollar Refund Freeze,” although the current threshold is
$10 million or more. This freeze code prevents the credit from automatically refunding or
offsetting to another tax account period.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Office of Appeals – The administrative forum for any taxpayer contesting an IRS compliance
action.
Small Business/Self-Employed Division – One of four primary IRS divisions that serve the tax
needs of individual taxpayers with business income and all businesses with assets under
$10 million.



                                                                                          Page 13
                  More Progress Is Needed to Reduce the Millions of Dollars
                       Paid in Interest on Improperly Frozen Refunds



Submission Processing – Processes tax returns, related documents, and payments at seven
processing centers—Andover, Atlanta, Austin, Cincinnati, Fresno, Kansas City, and Ogden.
Tax Exempt and Government Entities Division – One of four primary IRS divisions that serve
the tax needs of employee plans, exempt organizations, and Government entities.
Wage and Investment Division – One of four primary IRS divisions that serve the tax needs of
individual taxpayers without business income.




                                                                                     Page 14
     More Progress Is Needed to Reduce the Millions of Dollars
          Paid in Interest on Improperly Frozen Refunds



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 15
More Progress Is Needed to Reduce the Millions of Dollars
     Paid in Interest on Improperly Frozen Refunds




                                                      Page 16
More Progress Is Needed to Reduce the Millions of Dollars
     Paid in Interest on Improperly Frozen Refunds




                                                      Page 17
More Progress Is Needed to Reduce the Millions of Dollars
     Paid in Interest on Improperly Frozen Refunds




                                                      Page 18
